TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Electronic Fraud Detection System
                   Redesign Failure Resulted in Fraudulent
                   Returns and Refunds Not Being Identified



                                          August 9, 2006

                              Reference Number: 2006-20-108




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(a) = Identifying Information - Name of an Individual or Individuals
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  August 9, 2006


 MEMORANDUM FOR ACTING CHIEF INFORMATION OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Electronic Fraud Detection System Redesign
                               Failure Resulted in Fraudulent Returns and Refunds Not Being
                               Identified (Audit # 200620009)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) effectively managed annual programming changes and requested modifications to the
 Electronic Fraud Detection System (EFDS) prior to Processing Year1 (PY) 2006.

 Synopsis
 The EFDS is the primary information system used to support the Criminal Investigation (CI)
 Division’s Questionable Refund Program, a nationwide program established to detect and stop
 fraudulent claims for refunds on income tax returns. In PY 2005, the CI Division stopped
 $412.2 million in fraudulent refunds. In 2001, a contractor was hired to assist the IRS with
 EFDS operations, maintenance, and enhancements. As of April 24, 2006, over $37 million had
 been paid to the contractor for this work, including $18.5 million for system development efforts.
 Two other contractors were paid approximately $2 million for system development work,
 bringing the total EFDS system development cost to $20.5 million.2 The January 31, 2006,
 Business Case shows the EFDS total costs from August 1994 through September 2005 were
 $185.9 million.
 In 2002, the IRS initiated an effort to redesign the EFDS to improve system performance,
 reliability, and availability. The redesigned EFDS web-based application3 (Web EFDS) was to

 1
   See Appendix VI for a Glossary of Terms.
 2
   The $18.5 million and $20.5 million are based on our analysis of the total costs obtained from the EFDS Project
 Office and the IRS web-based requisition tracking system.
 3
   The system development effort will allow users to access the System via the IRS Intranet.
                 The Electronic Fraud Detection System Redesign Failure Resulted
                      in Fraudulent Returns and Refunds Not Being Identified



be implemented in January 2005. Due to system development problems, the implementation
date was delayed until January 2006. However, the implementation date was not met. On
April 19, 2006, all system development activities for the Web EFDS were stopped, and all efforts
were focused on restoring the old EFDS for use in January 2007. Therefore, the IRS has been
and will be unable to use the EFDS to prevent fraudulent refunds during PY 2006. The IRS
reported that, due to other leads,4 $93.9 million5 in fraudulent refunds had been stopped as of
May 19, 2006, without the EFDS being operational.
The lack of adequate executive oversight and monitoring of the Web EFDS project contributed
to the EFDS not being implemented for PY 2006. From June 2002 until July 2003, an EFDS
Executive Steering Committee held periodic meetings to review the project’s activities. After
July 2003, executive oversight for the project was provided by Business Systems Development
(BSD) office executives who also have responsibility for managing the maintenance and
development work for over 325 IRS systems. The IRS is considering expanding the Senior
Management Dashboard Review of projects to include nonmodernization projects such as the
EFDS. The IRS also established an Enterprise Services office in the Modernization and
Information Technology Services organization to consolidate common enterprise programs.
In the Business Case required by the Office of Management and Budget, the EFDS is presented
as a Steady State project although the Business Case describes ongoing operations and
maintenance activities, development of the web-based application, and redesign of the database.
The Business Case also contains several conflicting statements describing the status of the
project and the related system development efforts. Based on IRS guidelines, the EFDS should
be categorized as a Development/Modernization/Enhancement project and be governed by an
Executive Steering Committee that includes executives from outside the BSD organization.
Although the Business Case was reviewed by the IRS, the Department of the Treasury, and the
Office of Management and Budget, none of the reviewers questioned the categorization of the
project or the conflicting statements.
Because the EFDS was classified as a Steady State project, an initial cost estimate for the Web
EFDS development was not prepared. Therefore, management did not monitor for and we
cannot determine whether there were cost overruns. However, the Web EFDS was initially
scheduled to be implemented in January 2005, and funds continued to be added to the project to
pay the contractors for their system development efforts.
Project documentation indicates the Web EFDS project followed the Enterprise Life Cycle-Lite
system development methodology and the status of the project was monitored through project
team and contractor discussions, status reports, and reviews of the work breakdown structure.


4
  The EFDS is the primary source for the identification of leads on fraudulently filed tax returns; however, leads are
also received from sources internal to and external from the IRS.
5
  This amount was derived from a manual process provided by the Fraud Detection Centers on a weekly report; it
has not been verified and could contain inconsistencies/inaccuracies due to the manual process.
                                                                                                                     2
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified



Although numerous indications of potential risks and problems were raised throughout the
project, effective corrective actions were not taken. Also, three key project management
documents were not maintained properly or created timely.
During development of the Web EFDS, there were numerous changes in project management
and executives responsible for overseeing the project. Frequent changes in leadership can affect
the project continuity and direction and may indicate other problems with the project. There was
also excessive turnover of contractor employees working on the project, partially due to mergers
of the contractor firms. The combination of the assignment of new employees who need to
become familiar with a project and the loss of highly skilled employees can jeopardize
information technology projects and result in less than full performance.
Because the Web EFDS was not implemented as scheduled in 2005 and 2006, and there are no
current plans to continue development of the Web EFDS, we estimate the IRS inefficiently used
resources totaling $20.5 million from May 25, 2001, to April 24, 2006, for the contractor costs
associated with development of the Web EFDS. An undeterminable amount of internal staffing
costs were also incurred in trying to test the new System and monitor the primary contractor’s
activities.
We reviewed six work requests written against the EFDS task order and determined they
included deliverables written in general terms with no specific due dates. Because of the
contract type used to procure contractor assistance, the contractor continues to be paid for system
development work while a critical system used to stop fraudulent tax returns and refunds was not
operational during PY 2006. In addition, the Federal Government’s interest has not been
protected, and the contractor cannot be held accountable for not meeting deliverable due dates.
While the contract vehicle used to obtain contractor services is very important, the effectiveness
of the Contracting Officer’s Technical Representative (COTR) in monitoring the contractor’s
performance is also crucial in assuring successful contract administration. ****3(d)****




                                                  .
IRS management advised us that, during a meeting between IRS and contractor executives, a
Contractor Senior Director commented the old EFDS would be updated and implemented at no
cost to the Federal Government because the contractor did not deliver the Web EFDS as
scheduled. However, the contractor submitted charges totaling $459,718 for the additional work
                                                                                                     3
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified



to get the old EFDS ready for implementation, and these charges were paid by the IRS. The
EFDS Project Manager advised us the invoices were paid without question because all invoices
for the contract type that was used must be paid in full. The contractor had stated only verbally it
would not charge the IRS for updating the old EFDS for use in 2005, and the matter was not
raised with the contractor. Therefore, these costs are considered questioned costs because the
contractor did not deliver a Web EFDS that worked.
The EFDS Project Executive advised us a decision would be made in the future about whether to
continue the Web EFDS development efforts and what contracting approach should be used.
The IRS has established a Questionable Refund Program Executive Steering Committee to
review and approve changes to the Program, but due dates regarding any Program change
decisions have not been determined.
By using cost-reimbursement contracts, ineffectively monitoring contractor performance, and not
questioning contractor invoice charges for updating the old EFDS, the IRS did not ensure the
Federal Government’s interests were protected and the Web EFDS was implemented timely to
identify and stop fraudulent tax returns and refunds.

Recommendations
We recommended the Chief Information Officer ensure the EFDS project is assigned to an
Executive Steering Committee for executive oversight; the Business Case and the information
technology investment portfolio are revised to categorize the EFDS project properly and include
accurate and consistent information; project risks are identified and addressed properly; the
proper system development life cycle methodology is implemented for EFDS development;
other projects being managed in the new Applications Development organization are assigned to
the appropriate oversight process; and high-risk projects, like the EFDS, are included in the
Senior Management Dashboard Review process. We also recommended the Chief Information
Officer ensure contractors are held accountable for performance; COTRs are trained adequately
and perform their duties properly; discussions are initiated with the Director, Procurement, and
the contractor to recover the funds paid to the contractor to restore the old EFDS for PY 2005
and any additional costs resulting from nondelivery of a functional Web EFDS; and additional
work on the Web EFDS is deferred until the IRS decides who will perform the EFDS work.

Response
IRS management agreed with all of the recommendations and has begun to implement corrective
actions, such as placing the EFDS project under the governance of the Taxpayer Relationship
Management Executive Steering Committee on May 31, 2006, and identifying, documenting,
and discussing EFDS risks, issues, and mitigation strategies at the appropriate oversight
committees.

                                                                                                  4
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified



IRS management also plans to implement several corrective actions, including identifying
high-risk projects in the Applications Development organization and assigning them to the
appropriate oversight process. The IRS stated it is revising the Business Cases to categorize the
restoration of the old EFDS for 2007 as a Steady State project. The categorization proposal will
be sent to the Department of the Treasury Office of the Chief Information Officer for
concurrence and to ensure accuracy and consistency of the information. In June 2006, the IRS
began discussions of tailoring the Enterprise Life Cycle methodology for the project restoring the
old EFDS. In addition, the IRS is negotiating the contract for the EFDS restoration, anticipating
that it will be a cost-plus-fixed-fee contract with a percentage of the contractor’s fees dependent
upon timely delivery of specified milestones. In Fiscal Year 2007, the appropriate project office
management staff will have a commitment to ensure all COTRs are trained adequately and their
duties are performed properly to monitor the contractors’ performance effectively. In May 2006,
the IRS initiated discussions with the contractor regarding cost-sharing for the contract to restore
the old EFDS for PY 2007. An IRS-wide initiative for the Questionable Refund Program has
started, and a high-level strategy will be completed by December 31, 2006. Any further
development of the Web EFDS will include requirements identified from this initiative, and any
new development work will be opened to competition. Management’s complete response to the
draft report is included as Appendix VIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                  5
                    The Electronic Fraud Detection System Redesign Failure Resulted
                         in Fraudulent Returns and Refunds Not Being Identified




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Electronic Fraud Detection System Did Not Have Adequate
          Executive Oversight......................................................................................Page 4
                    Recommendations 1 and 2: ..............................................Page 8

                    Recommendation 3:........................................................Page 9

          The Electronic Fraud Detection System Risks Were Not Effectively
          Managed........................................................................................................Page 9
                    Recommendations 4 and 5: ..............................................Page 18

          Contractor 1’s Performance Was Not Effectively Monitored, and
          Performance-Based Contracts Were Not Used.............................................Page 18
                    Recommendation 6:........................................................Page 21

                    Recommendations 7 through 9:.........................................Page 22


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 23
          Appendix II – Major Contributors to This Report ........................................Page 26
          Appendix III – Report Distribution List .......................................................Page 27
          Appendix IV – Outcome Measures...............................................................Page 28
          Appendix V – Chronology of the Electronic Fraud Detection System
          Development Events - January 1, 1995, Through April 19, 2006 ................Page 31
          Appendix VI – Glossary of Terms................................................................Page 36
          Appendix VII – Electronic Fraud Detection System Management
          Turnover........................................................................................................Page 43
          Appendix VIII – Management’s Response to the Draft Report ...................Page 45
                  The Electronic Fraud Detection System Redesign Failure Resulted
                       in Fraudulent Returns and Refunds Not Being Identified




                                              Background

 The Modernization and Information Technology Services (MITS) organization is responsible for
 providing information technology support and services for the Internal Revenue Service (IRS)
 by building and maintaining information systems that will help the IRS achieve its mission,
 objectives, and business vision. The MITS Strategic Plan for Fiscal Years (FY) 2005 – 2006
 supports the IRS’ objective of discouraging and deterring noncompliance with the tax laws by
 delivering modernized information systems.
 The Criminal Investigation (CI) Division’s Questionable Refund Program is a nationwide
 program established to detect and stop fraudulent claims for refunds on income tax returns. The
 Electronic Fraud Detection System (EFDS) is the primary information system used to support
 the Questionable Refund Program and is currently maintained by the MITS Applications
 Development organization.1 Figure 1 shows the number of fraudulent refund returns and refunds
 identified and stopped over the last 4 years.
      Figure 1: Fraudulent Refund Returns and Refunds Identified and Stopped*
 Processing       Total         Refund        Returns        False        False      False Refunds     False Refunds
   Year2         Returns        Returns       Screened      Refund       Refund        Identified        Stopped3
                  Filed          Filed        by Fraud      Returns      Returns
                                              Detection    Identified    Stopped
                                               Centers
     2002      130,341,159    104,367,859     1,942,089      81,486       41,358      $450,023,509       $333,541,138
     2003      130,134,276    104,904,543      740,216       96,953       73,400      $349,515,144       $266,423,786
     2004      130,459,600    106,420,200      463,222      118,075       82,099    $2,241,612,551     $2,110,454,658
     2005      133,933,000    100,276,000      511,805      132,945      103,537      $515,548,186       $412,184,202
Source: The CI Division.
 * The EFDS is the primary source for the identification of leads on fraudulently filed tax returns; however, leads are
 also received from sources internal to and external from the IRS. The IRS reports that, due to other leads,
 $93.9 million in fraudulent refunds had been stopped as of May 19, 2006, without the EFDS being operational. This
 amount was derived from a manual process provided by the Fraud Detection Centers on a weekly report; it has not
 been verified and could contain inconsistencies/inaccuracies due to the manual process.



 1
   The MITS organization recently combined the former Business Systems Development and Business Systems
 Modernization organizations to create one Applications Development organization. As of March 2006, executive
 management had been realigned into the new organization structure.
 2
   See Appendix VI for a Glossary of Terms.
 3
   ****1****
                                                                                                              Page 1
                 The Electronic Fraud Detection System Redesign Failure Resulted
                      in Fraudulent Returns and Refunds Not Being Identified




In 2001, a contractor (Contractor 1) was hired to assist the IRS with EFDS operations,
maintenance, and enhancements. As of April 24, 2006, over $37 million had been paid to the
contractor for this work, including $18.5 million for new system development efforts. In 2002,
the IRS initiated an effort to redesign the EFDS to improve system performance, reliability, and
availability; the initial plan shows the redesigned EFDS web-based application (Web EFDS) was
to be implemented in January 2005. However, due to system development problems, the
implementation date was delayed until January 2006.
The IRS also hired two additional contractors to assist Contractor 1 with development of the
Web EFDS. Contracts 1 and 2 are cost-reimbursement contracts. Contract 3 is a
time-and-materials contract. The responsibilities of Contractors 2 and 3 included the following:
    •   Contractor 2 is responsible for determining the effectiveness of and maintaining
        data-mining techniques and is paid its costs plus a fixed fee. As of April 24, 2006, this
        contractor had been paid $1,005,546 for work on the Web EFDS.
    •   Contractor 3 is responsible for consulting services on database-related issues and is paid
        based on the number of hours of consulting services provided. As of April 24, 2006, this
        contractor had been paid $1,002,859 for work on the Web EFDS.
Therefore, the total development cost for the Web EFDS as of April 24, 2006, was
$20.5 million.4 Our review primarily focused on Contractor 1 because it was ultimately
responsible for delivering a fully operational Web EFDS.
On February 21, 2006, the IRS Deputy Commissioner for Services and Enforcement advised us
the EFDS would probably not be available during Processing Year (PY) 2006, due to continued
system development problems, and a recovery program to identify
fraudulently issued refunds would not be run. The IRS              The IRS has been and will
established a Questionable Refund Program Executive Steering      be unable to use the EFDS
Committee to review and approve changes to the Program, but the    during PY 2006 to prevent
due dates regarding any Questionable Refund Program change          fraudulent refunds, after
                                                                   spending $20.5 million on
decisions have not been determined. On April 19, 2006, all
                                                                   new system development
system development activities for the Web EFDS were stopped,                efforts.
and all efforts were focused on restoring the old EFDS for use in
January 2007. Therefore, the IRS has been and will be unable to
use the EFDS to prevent fraudulent refunds during PY 2006. A complete chronology of EFDS
activities is included in Appendix V.
We initiated this audit at the request of the House Ways and Means Subcommittee on Oversight.
The Subcommittee was interested in:


4
 The $18.5 million and $20.5 million are based on our analysis of the total costs obtained from the EFDS Project
Office and the IRS web-based requisition tracking system.
                                                                                                           Page 2
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




   •   What were the EFDS problems and have they been fixed?
   •   How much money did the Federal Government lose as a result of the EFDS not working
       properly and allowing the issuance of fraudulent refunds?
   •   Does the IRS plan to review those refunds that were not evaluated by the EFDS because
       the System was not implemented?
This audit report will address the first question. The remaining two questions will be addressed
by an audit conducted by the Treasury Inspector General for Tax Administration (TIGTA)
Headquarters Operations and Exempt Organizations Programs business unit (Audit
Number 200610003), which will determine the effectiveness of the IRS’ procedures for detecting
fraudulent and potentially fraudulent refund returns (including inventory controls) and the timely
and proper hold and release of refunds. The TIGTA Information Systems Programs business
unit has initiated a separate audit (Audit Number 200620040) to assess the EFDS application and
infrastructure security certification and accreditation process.
This review was performed at the MITS organization offices in Memphis, Tennessee;
New Carrollton, Maryland; and Washington, D.C., during the period February through
May 2006. The audit was conducted in accordance with Government Auditing Standards. Our
audit work was delayed because IRS personnel deferred responses to our requests for interviews,
documentation, and project status briefings citing other priorities with the Web EFDS
development activities. In addition, due to the lack of documentation of key meetings and
decisions, much of the information in the report is based on emails provided to us and on the
recollections of the employees we interviewed. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                           Page 3
                 The Electronic Fraud Detection System Redesign Failure Resulted
                      in Fraudulent Returns and Refunds Not Being Identified




                                       Results of Review

The Electronic Fraud Detection System Did Not Have Adequate
Executive Oversight
The Clinger-Cohen Act of 19965 requires agencies to use a disciplined Capital Planning and
Investment Control process to acquire, use, maintain, and dispose of information technology
assets. Office of Management and Budget (OMB) Circular A-11, Preparation, Execution, and
Submission of the Budget, dated June 2005, requires each agency to include with its annual
budget submission to the OMB an information technology investment portfolio, commonly
referred to as an Exhibit 53, containing the information technology investment title, description,
amount, and funding source. Twice each year, the OMB requires agencies to submit an OMB
Circular A-11 Exhibit 300, Capital Asset Plan and Business Case, for each major information
technology investment. IRS guidelines require the Business Case to be updated quarterly. These
documents are essentially Business Cases used by agencies to request funds, monitor the
progress of projects, and improve management decision making over expensive information
technology investments. Depending on the type of activities occurring in a project, the project is
categorized as a Development/Modernization/Enhancement or Steady State investment.6
Until November 2004, IRS information technology projects were classified for investment
decision purposes as either Tier A, B, or C, as defined below.
    •    Tier A – Technical Modernization Projects – Resources devoted to Information
         Technology Investment Account-funded projects and managed by the IRS Business
         Systems Modernization Office. Project scale is large, with a 2-year to 3-year time period.
    •    Tier B – Improvement Projects – Resources devoted to new improvements of medium
         size (1-year to 2-year time period) and funded from the improvement programs budget.
    •    Tier C – Enhancements/Stay-In-Business Projects – Resources devoted to all other types
         of projects (e.g., sustaining operations, legislative changes, and small enhancements to
         sustaining operations) funded from the regular sustaining operations budget.



5
  Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
6
  The Development/Modernization/Enhancement and Steady State investment types are broken down into the
subinvestment types Major, Non-Major, and Small-Other.
                                                                                                              Page 4
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




In November 2004, the IRS changed the project classification process to be more consistent with
OMB Circular A-11 guidance that categorizes investments as either Development/
Modernization/Enhancement or Steady State.
The IRS’ Capital Planning and Investment Control process for managing information technology
projects established an executive governance process for monitoring projects. The process
included the MITS Enterprise Governance Committee, MITS Enterprise Governance Committee
Investment Management Subcommittee, and Executive Steering Committees responsible for
specific projects. Major projects with costs of over $5 million per year or more than $50 million
in total life cycle costs are to be governed by the executive governance process. Formal agendas,
presentations, and meeting minutes (including documentation of key decisions and assignments)
should be prepared for each Executive Steering Committee meeting.

The lack of continuous Executive Steering Committee oversight and inadequate
documentation of key decisions increases the risks that responsible parties are
not held accountable and actions are not implemented
The EFDS project was initially considered a Tier C project; it was later reclassified as a Steady
State project. From June 2002 until July 2003, an EFDS Executive Steering Committee held
periodic meetings to review the project’s activities. However, the EFDS Executive Steering
Committee stopped meeting at about the time the IRS decided to redesign the EFDS into the
Web EFDS. After July 2003, executive oversight for the project was provided by the Business
Systems Development (BSD) organization executives who also have responsibility for managing
the maintenance and development work for over 325 IRS
systems.                                                            The EFDS project was
                                                                  incorrectly categorized as a
As of April 30, 2006, the Web EFDS project did not have           Steady State initiative after
an Executive Steering Committee to provide executive            completion of a reengineering
oversight as required by the Capital Planning and              study and the awarding of a task
Investment Control process, although we were advised by        order for software maintenance
                                                                   and development totaling
the EFDS Project Executive that the IRS is going to               $39 million. The lack of an
reestablish an EFDS Executive Steering Committee.               executive governance process
On April 24, 2006, the Applications Development                contributed to the inefficient use
organization briefed us on the status of a review of the        of system development funds
Business Systems Modernization program conducted by a             and fraudulent refunds not
                                                                        being stopped.
contractor. One of the processes considered to be working
effectively is the Senior Management Dashboard Review
of projects, and the IRS is considering expanding this review process to include
nonmodernization projects such as the EFDS. The IRS also established an Enterprise Services
office in the MITS organization to consolidate common enterprise programs.
While executive oversight of the project was lacking, there was also very limited documentation
(mostly in the form of emails) of the discussions and decisions made when the IRS determined

                                                                                            Page 5
                    The Electronic Fraud Detection System Redesign Failure Resulted
                         in Fraudulent Returns and Refunds Not Being Identified




Contractor 1 could not deliver the Web EFDS in 2005. For example, BSD organization
management stated that Contractor 1 agreed not to charge the IRS for the cost of updating and
implementing the old EFDS, which had been shut down in early December 2005. However, no
one could provide documentation showing when the agreement was made and who was present.
If this situation had been documented and elevated to the appropriate executives, action could
have been taken to ensure the contractor was held to the agreement. If the IRS determined the
agreement was not legally binding, BSD organization management, at a minimum, would have
known to expect the charges.
It is important to document key events and decisions so employee and contractor accountability
is established and follow-up can be done to ensure actions are completed as expected. In
addition, when new managers and staff are assigned to the project, documentation of key events
and decisions will help them understand the history of the project, lessons learned from prior
activities, and responsibilities of contractors and employees. By expanding the Senior
Management Dashboard Review and establishing the Enterprise Services office, the IRS hopes
to ensure the Web EFDS problems do not happen again.

The management review process over the information technology investment
portfolio and Business Case did not resolve conflicting statements regarding the
EFDS status
The IRS prepared an information technology investment portfolio and Business Case for the
EFDS project. The information technology investment portfolio for FYs 2005 and 2006 shows
the project cost $12.6 million, with $12 million (95 percent) assigned to the Steady State
category and $0.6 million (5 percent) assigned to the Development/Modernization/Enhancement
category. However, significantly more funds have been spent on system development activities.
The most current Business Case, dated January 31, 2006, shows the EFDS total costs from
August 1994 through September 2005 were $185.9 million. The EFDS is presented as a Steady
State project, although the Business Case describes ongoing operations and maintenance
activities, development of the web-based application, and redesign of the database. The Business
Case also contains several conflicting statements7 describing the project and the system
development status:
       •   Part I.A. (Investment Description) has the following conflicting project descriptions:
                o The EFDS is a mission critical, web-based automated system designed to
                  maximize fraud detection at the time that tax returns are filed to eliminate the
                  issuing of questionable refunds.
                o The EFDS is currently a client server-based application used by authorized
                  Criminal Investigation Division employees.

7
    The bolded words in the italicized direct quotes show the conflicting information.
                                                                                                Page 6
               The Electronic Fraud Detection System Redesign Failure Resulted
                    in Fraudulent Returns and Refunds Not Being Identified




            o The EFDS will migrate to a web-based system for PY 2006.
            o The EFDS is a Tier C operational system/maintenance project in the IRS
              As-built Architecture. Tier C projects are maintenance projects for existing
              systems that are critical to sustaining operations, including making the changes
              required by new tax laws or system improvements that do not significantly change
              functionality, but improve the process.
    •   Part I.E. (Alternative Analysis) and Part I.G. (Acquisition Strategy for existing
        contract(s) system development), respectively, have the following conflicting statements
        about the EFDS development status:
            o The EFDS is a Steady State system that is not currently scheduled to be
              replaced. The most recent operational analysis of the EFDS was completed on
              April 15, 2005. Based on our customer (Criminal Investigation Division) survey
              . . . there is no indication that the EFDS requires major enhancement or
              replacement at this time.
            o The current task orders enable the contractors to research and provide solutions
              for the EFDS, including researching best practices; and defining, developing, and
              implementing a reengineered EFDS application and database. Specific tasks
              include database architecture design, production support, startup/migration
              activities, loads and application reengineering in the business data model.
Based on information in the Business Case and the cost of the system, the EFDS should have
been placed in two different categories. The original System should have been shown in the
Steady State category, and the new Web EFDS development project should have been shown in
the Development/Modernization/Enhancement category. Therefore, based on IRS guidelines,
the EFDS should be categorized as a Development/Modernization/Enhancement project and be
governed by an Executive Steering Committee that includes executives from outside the BSD
organization.
The inaccuracy of IRS Business Cases was also the subject of a prior TIGTA audit report.8 In
responding to the audit report, the IRS agreed to take several actions to improve the accuracy of
the Business Cases, including designating project managers as the individuals accountable for all
data contained in their operational and developmental Business Cases and providing training and
guidance documents as appropriate. However, management’s actions did not result in the EFDS
Business Case containing accurate and consistent information.




8
 Business Cases for Information Technology Projects Need Improvement (Reference Number 2005-20-074,
dated April 2005).
                                                                                                      Page 7
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




Although the Business Case was also reviewed by the IRS, the Department of the Treasury, and
the OMB, none of the reviewers questioned the categorization of the project or the conflicting
statements.
The lack of adequate executive oversight and monitoring of the Web EFDS project contributed
to the EFDS not being implemented for PY 2006 and the System not being used to identify and
stop fraudulent tax returns and refunds. During PY 2005, $412.2 million in fraudulent refunds
were stopped. The IRS reported that, due to other leads, $93.9 million in fraudulent refunds had
been stopped as of May 19, 2006, without the EFDS being operational. Based on the value of
fraudulent refunds stopped in PYs 2005 and 2006 (through May 19, 2006), we estimate
approximately $318.3 million in fraudulent refunds may have been issued in 2006, resulting in
lost revenue to the Federal Government (see Appendix IV).

Recommendations
Recommendation 1: The Chief Information Officer (CIO) should ensure the EFDS project is
assigned to an Executive Steering Committee for executive oversight, including documenting
key decisions and assignments.
       Management’s Response: IRS management agreed with this recommendation. The
       EFDS was officially placed under the governance of the Taxpayer Relationship
       Management Executive Steering Committee on May 31, 2006. The Executive Steering
       Committee process and procedures include preparation of meeting agendas, minutes, and
       other appropriate project documentation of key decisions and assignments.
Recommendation 2: The CIO should evaluate other projects being managed in the new
Applications Development organization and ensure all are assigned to the appropriate oversight
process. High-risk projects, like the EFDS, should also be included in the Senior Management
Dashboard Review process.
       Management’s Response: IRS management agreed with this recommendation. The
       Associate CIOs for Applications Development and Enterprise Services have begun initial
       evaluations of other projects being managed in the new Applications Development
       organization. In April 2006, Applications Development projects identified as high
       risk/high impact were assigned to either the Senior Management Dashboard Review or
       the Project Health Assessment Review process and to the appropriate governance
       structure (e.g., Executive Steering Committee) for oversight. The first phase of
       evaluation was to discuss and apply management judgment to ensure high-risk projects
       identified to date were assigned to the appropriate oversight process. All projects will be
       asked to complete the Health Check Questionnaire. Responses to the Questionnaire will
       be assessed and corrective actions taken as needed on at-risk projects.



                                                                                           Page 8
                  The Electronic Fraud Detection System Redesign Failure Resulted
                       in Fraudulent Returns and Refunds Not Being Identified




Recommendation 3: The CIO should ensure the Business Case and the information
technology investment portfolio are revised to categorize the EFDS project properly and include
accurate and consistent information.
           Management’s Response: IRS management agreed with this recommendation.
           Work on the Web portal EFDS has stopped, and no determination has been made
           concerning implementation of the System. The old EFDS application is being updated
           and is planned to be in production in January 2007. Accordingly, the EFDS Business
           Cases are being revised to categorize the restoration of the old EFDS as a Steady State
           investment. The categorization proposal will be sent to the Department of the Treasury
           Office of the CIO for concurrence and to ensure accuracy and consistency of the
           information.

The Electronic Fraud Detection System Risks Were Not Effectively
Managed
Department of the Treasury Publication 84-019 states that general standardization of life cycle
management ensures systems are developed, acquired, evaluated, and operated efficiently, within
prescribed budget and schedule constraints, and are responsive to mission requirements. A
software development life cycle methodology provides a structured and consistent approach to
information technology project development. In 2001, 2003, and 2004, MITS organization
management issued memoranda directing the Enterprise Life Cycle-Lite (ELC-Lite) be used as
the required system development methodology for all nonmodernization projects. The ELC-Lite
addresses the life cycle of project management and the phases and milestones of development,
review, and approval of project plans.
The Department of the Treasury Information Technology Manual and the IRS system
development guidelines stipulate that, as part of the information system life cycle management
process, project management should identify project risks early and manage them before they
become problems. The risk management process encompasses the identification of risk issues,
assessment of risk to define probability and impact, preparation and implementation of risk
mitigation and risk contingency plans, and continuous monitoring of those actions to ensure
effectiveness. Risk management is used to ensure critical areas of uncertainty are surfaced early
enough to be addressed without adversely affecting cost, schedule, or performance.
The BSD organization’s EFDS Project Office has responsibility for analyzing and coordinating
new or changed requirements with the business operating divisions and contractors supporting
the EFDS. The EFDS Project Office is also responsible for developing, maintaining, and
enhancing computer programs that support the business requirements and improve the IRS’
efficiency in detecting potentially fraudulent returns.

9
    Information System Life Cycle Manual (dated March 2002).
                                                                                             Page 9
                 The Electronic Fraud Detection System Redesign Failure Resulted
                      in Fraudulent Returns and Refunds Not Being Identified




The IRS issued a task order to Contractor 1 for the period June 2000 through May 2006
authorizing approximately $39.5 million for EFDS software maintenance and development. As
of April 2006, the IRS had paid Contractor 1 over $37 million, approximately $18.5 million10 of
which was for Web EFDS development. The Web EFDS was initially scheduled for
implementation in January 2005. However, in October 2004, CI Division and BSD organization
management had doubts the System would be ready. On November 1, 2004, IRS executives
decided to use the old EFDS for PY 2005. During 2005, the contractor continued to promise the
Web EFDS would be delivered in January 2006, but it was not operational for PY 2006 because
the contractor, again, did not deliver a System that worked. For example, we were provided an
email from the contractor dated October 21, 2005, that stated “[Contractor 1] remains confident
in our ability to deliver the EFDS web portal application for use by the IRS Criminal
Investigation Division on January 13, 2006.” Because the IRS believed the contractor’s
assurances that the System would be delivered for PY 2006, no contingency plan was developed
and no actions were taken to go back to using the old System, similar to what was done for
PY 2005.
In an effort to get Web EFDS implemented in 2006, the IRS increased oversight activities in
August 2005 by beginning biweekly meetings among the CI Division, the BSD organization, and
the contractors. On October 31, 2005, an EFDS Readiness Executive Briefing was held with the
Product Assurance organization and other MITS organizations involved with implementation of
the Web EFDS. In late November or early December 2005, the IRS began holding daily
executive meetings. In December 2005, the IRS again increased oversight activities by holding
more frequent technical team meetings with the contractors. In February 2006, the IRS
established a ‘War Room’ and command center to monitor Web EFDS development activities
that continued until early April 2006, in hopes of getting the System to work.
The EFDS redesign activities were viewed as an enhancement to an existing System instead of as
a complex system development effort. Project documentation indicates the Web EFDS project
followed the ELC-Lite system development methodology and the status of the project was
monitored through project team and contractor discussions, status reports, and reviews of the
work breakdown structure. Although numerous indications of potential risks and problems were
raised throughout the project, effective corrective actions were not taken, as summarized below.




10
 This amount is based on our analysis of the total costs obtained from the EFDS Project Office and the IRS
web-based requisition tracking system.
                                                                                                        Page 10
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




Problems were identified during preparation for PY 2005
During 2004, the EFDS Project Office and contractors were working to convert the old EFDS to
a web-based application and to redesign the System’s databases. However, signs of development
difficulties began to surface by the middle of the year. Specifically:
   •   On June 18, 2004, the Contracting Officer’s Technical Representative (COTR) expressed
       concerns to the contractor’s development team that they had not completed a
       walk-through of the application with the users. Therefore, the contractor was not
       sufficiently familiar with the functionality of the current EFDS, changes were made
       without considering user needs, and requirements were not followed.
   •   In July or August 2004, the Project Manager was informed by the System Acceptability
       Testing (SAT) team leader that the System was completely unusable when the first
       versions of the applications were delivered for testing.
   •   On October 6, 2004, the EFDS Project Manager advised the CI Director, Refund Crimes,
       of significant problems with the Web portal application. On October 18, 2004, the SAT
       Branch Chief advised the CI Director, Refund Crimes, that late delivery of the Web
       portal applications to the SAT team put the testing approximately 6 weeks behind
       schedule.
Due to the continuing problems, IRS executives and the contractor agreed in late October 2004
the System modifications would not be ready by January 2005, and a decision was made by
CI Division and MITS organization executives to use the old System for PY 2005 while work
continued on the new System.

Problems were identified during preparation for PY 2006
Because the 2004 effort failed to deliver a new System in time for PY 2005 and the old System
was restored, the EFDS Project Office and contractors continued to work on converting the old
EFDS to a web-based application and redesigning the System’s databases during 2005.
However, signs of development difficulties again began to surface early in the year.
Specifically:
   •   On April 20, 2005, an EFDS Project Office email cited data loads and other problems had
       been identified with the System.
   •   On May 10, 2005, the CI Director, Refund Crimes, requested an independent study of the
       Web EFDS requirements to provide some assurance that the contractor would be able to
       deliver what it agreed to. The Director advised that the study needed to be done in the
       summer of 2005, not after the System was implemented. The BSD Director, Filing
       Systems Division, replied that the time needed to resolve “a few existing glitches” would
       not permit them to begin a study until mid-2006 at the earliest, and because the MITS
       organization did not have funds for the study, the CI Division would have to fund it. The

                                                                                        Page 11
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




       CI Division agreed to fund the study; however, due to staffing availability, the study was
       not performed.
   •   In August 2005, the CI Division received the training database to begin development of
       training materials and identified numerous problems with the Web EFDS application.
   •   The August 26, 2005, CI Division meeting minutes reported significant performance
       problems with the computer network, numerous application defects, considerable
       usability issues, incomplete implementation of requirements, and the need for a
       contingency plan. The EFDS Project Office did not have a contingency plan.
   •   On October 25, 2005, the BSD Director, Filing Systems Division, issued an EFDS
       Readiness Review to the Deputy Director, Enterprise Operations; Director, Enterprise
       Networks; Director, Product Assurance; and Acting Deputy Director, End User
       Equipment and Services, outlining the problems, ramifications of not reducing the risks,
       and mitigation plans.
   •   On October 28, 2005, the Product Assurance organization informed the CI Division that a
       significant number of problems with the data conversion had been encountered.
   •   On November 2, 2005, the BSD Director, Filing Systems Division, and a BSD
       Information Technology Specialist made a trip to the CI Division training location to
       observe the System’s problems.
   •   On December 22, 2005, the EFDS Project Information Technology Specialist discovered
       significant inaccuracies in three recent work breakdown structures submitted by
       Contractor 1. The contractor reported the execution of the annual data loads to be
       10 percent, 40 percent, and 50 percent completed in the work breakdown structures dated
       November 28, December 15, and December 20, 2005, respectively. However, the IRS
       was advised by the contractor’s technical staff that the data loads had never been started.
       We were told the IRS advised the contractor of this situation but did not pursue the
       matter.
The IRS business units also conduct quarterly Business Performance Reviews to assess the status
of programs. The CI Division’s review for the fourth quarter of FY 2005, dated
September 30, 2005, raised the first indication of potential problems. The report stated that, due
to the scope of the project, it was impossible to keep both the old and new Systems operational.
This situation could negatively affect fraud detection until System deficiencies are corrected and
users become accustomed to the new functionality. However, the report indicated the
CI Division and the MITS organization had been coordinating to reduce the risks, and the
CI Division had informed external stakeholders of potential implementation problems. The first
quarter FY 2006 review, dated December 31, 2005, stated the System was currently delayed and
remained in SAT, meetings between the MITS organization and CI Division had occurred twice


                                                                                          Page 12
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




a week to discuss progress and potential risk to the program, and training for Fraud Detection
Center personnel had been stopped.
The MITS organization Business Performance Reviews did not identify the Web EFDS
implementation as a risk until the System missed the January 2006 implementation date. The
first quarter FY 2006 Business Performance Review, dated February 16, 2006, stated the MITS
organization failed to implement the EFDS timely for production startup on January 13, 2006.
Mitigation actions for the risk included holding Senior Executive daily conference calls, a
technical team (EFDS Project Office, Enterprise Operations organization, and contractor)
working daily on work breakdown structure dates and other issues, stopping prisoner refunds,
and delivering a fully functional system to the CI Division per the current work breakdown
structure of February 3, 2006.

Key management documents were not prepared or properly maintained
Software development life cycle documentation is an integral part of the information system
development process. The life cycle methodology should specify the documentation to be
generated during each phase. All project plans are considered process documentation necessary
to communicate status and direction and allow management to verify if appropriate progress is
being made during the development process. The EFDS Project Office used ELC-Lite as the
system development life cycle because the Web EFDS Project was classified as a Tier C or
Steady State project. The life cycle requirements include the preparation and maintenance of
three key project documents (project management plan, risk management plan, and work
breakdown structure/schedule). The EFDS Project Office had the three key project documents;
however, two of them were not maintained properly and one was not created timely.
   •   A project management plan was created on May 8, 2001, and last updated on
       September 30, 2003.
   •   A risk management plan was created June 23, 2004, and had not been updated. The plan
       should have been updated after the contractor missed the January 2005 implementation
       date, included the risk that the contractor would again not implement the Web EFDS
       timely, and described the activities (e.g., increased project management and executive
       oversight activities) needed to reduce this risk.
   •   A work breakdown structure was not prepared in 2004, but one was created in 2005.
       However, it did not include the original completion dates of the activities required to
       implement the Web EFDS. Therefore, original baseline dates are not available to
       determine the actual schedule slippages.
The ELC-Lite system development life cycle also requires milestone reviews during the
Architecture, Integration, and Operations and Support Phases of the life cycle. However, no
milestone reviews were conducted.

                                                                                           Page 13
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




If the EFDS had been properly classified as a Tier B or development project, preparation of
additional required documents such as a performance management plan, data management plan,
transition to support plan, configuration management plan, and contingency plan would have
helped manage the project risks. A more formalized governance structure, including an
Executive Steering Committee to help oversee project activities, would also have been required.
A configuration management plan had been developed; it showed a configuration management
board composed of EFDS project team members had been established to control changes to the
project. The EFDS Project Executive advised us a new configuration control board will be
established including higher level management.
Had a contingency plan been prepared after the contractor failed to deliver a System for use in
2005 and after the CI Division expressed concerns about the contractor’s ability to deliver a
System timely for 2006, IRS management may have been better prepared to deal with the
problems that occurred in 2006. Although the BSD Director, Filing Systems Division, emailed
the CI Director, Refund Crimes, on October 18, 2005, to confirm that the BSD organization did
not have a contingency plan for the EFDS, no other actions were taken. The BSD Chief,
Document Input Branch, stated there was no contingency plan because the BSD organization did
not have the funds to run both Systems at the same time. Documentation we were provided
shows the issue was not elevated above Division-level management until October 31, 2005,
when the BSD Director, Filing Systems Division, emailed the CIO and others about the Web
EFDS status.

Problems encountered during the SAT were indications of the poor quality of the
work performed by the contractor
The numbers of problem tickets reported by the SAT team and by the CI Division’s testing
efforts were other indications the Web EFDS would not be implemented timely. Our review of
the problem tickets recording application problems identified during testing showed over
900 problems were identified and recorded. Figure 2 provides a breakdown of the recorded
problem tickets.




                                                                                        Page 14
                 The Electronic Fraud Detection System Redesign Failure Resulted
                      in Fraudulent Returns and Refunds Not Being Identified




                          Figure 2: Monthly Totals of Problem Tickets
                      Month/Year              Problem Tickets11 As of March 15, 2006
                  July 2005                                      10
                  August 2005                                    26
                  September 2005                                 13
                  October 2005                                   21
                  November 2005                                  76
                  December 2005                                 192
                  January 2006                                  534
                  February 2006                                  66
                  March 2006                                     33
                         Total                                  971
                 Source: TIGTA analysis of EFDS problem tickets.

The SAT team encountered numerous problems while testing the Web EFDS during July 2005
through April 2006. The test results were reported in a test status report dated May 11, 2006.
We interviewed the SAT team and reviewed the test status report. Problems encountered
included:
     •   Documentation of the database characteristics was never delivered, so the SAT team
         could not verify the accuracy of the tables and columns (data type and format).
     •   Corrections to identified problems were not effective and at times created new problems.
     •   Daily data loads failed to finish populating the databases; as a result, testing of the Web
         portal application could not be completed until the daily loads were finished. Some of
         the problems with the daily loads remain unresolved.
SAT management stated they would like to have seen a better quality product delivered by the
contractor. The number of problems identified (over 900) and the number of software fixes
received were indications of an unsatisfactory product. The lack of coordination among the
contractor’s development teams was evident. For example, when one development team made a
change, it did not notify other development teams whose portions of the System were affected by
the change. As a result, the SAT team would encounter another problem with the program. This
would cause the SAT team to write another problem ticket, which would go back to the
contractor, requiring another software fix.




11
   On December 1, 2005, unresolved problem tickets recorded on the CI Division’s database were transferred to the
Product Assurance organization’s problem ticket database. We were unable to determine the number of problem
tickets opened and closed by the CI Division from August to December 2005 that were not included in the Product
Assurance organization’s problem ticket database.
                                                                                                         Page 15
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




Cost and schedule variances were not effectively monitored
Because the Web EFDS was classified as a Steady State project, an initial cost estimate for the
Web EFDS development was not prepared. Therefore, management did not monitor for and we
cannot determine whether there were cost overruns. However, funds continued to be added to
the project to pay the contractors for their system development efforts.
Because a baseline work breakdown structure was not established before the Web EFDS
development began, we did not perform an analysis of the work breakdown structure. However,
we identified at least one significant inaccuracy in the work breakdown structure. As discussed
previously, on December 22, 2005, an EFDS Project Information Technology Specialist
discovered significant inaccuracies in three recent work breakdown structures submitted by
Contractor 1. We were told the IRS advised the contractor of this situation but did not pursue the
matter to determine the impact on the schedule.
BSD organization management stated numerous work breakdown structures were prepared in
2005 and 2006 with deliverable due dates changed several times. However, Contractor 1 was
not held accountable for meeting the scheduled due dates. We were also told by IRS
management that Contractor 1 generally had an explanation for the delays and reassured the IRS
that it would meet the January 13, 2006, implementation date.
Another indication of schedule variance is the change in the implementation date. The original
implementation date for the Web EFDS was January 14, 2005; this was later revised to
January 13, 2006, after the contractor missed the first due date. As of April 19, 2006, the IRS
had stopped work on the Web EFDS.

Numerous leadership, project team, and contractor staff changes led to
inconsistent and inadequate oversight and development activities
During development of the Web EFDS, there were numerous changes in project management
and executives responsible for project oversight. For example, between 2002 and 2005, there
were three Associate CIOs, three Division Directors, and two Project Managers (see
Appendix VII). Frequent changes in leadership can affect a project’s continuity and direction
and may indicate other problems with the project. For example, one Project Manager indicated
that reassignment from the project was requested due to project problems and the lack of support
from upper management.
There was also excessive turnover of contractor employees working on the project, partially due
to mergers of the contractor firms. The combination of the assignment of new employees who
need to become familiar with a project and the loss of highly skilled employees can jeopardize
information technology projects and result in less than full performance. Contractor 1’s
biweekly status report included a section showing numerous departures and/or staffing changes,
as summarized in Figure 3. Positions with vacancies included testers, developers, and database
administrators.

                                                                                          Page 16
                 The Electronic Fraud Detection System Redesign Failure Resulted
                      in Fraudulent Returns and Refunds Not Being Identified




                                Figure 3: Contractor Turnover Rate
                                                                  Number of
                                       Total Number of                                 Turnover
                      Year               Employees
                                                                Employees Who
                                                                                         Rate
                                                                    Left
                      2004                     46                       33               72%
                      2005                     42                       20               48%
                      2006
                                               43                       20               47%
                   estimate12
               Source: The BSD organization.

Because of the IRS’ failure to effectively manage the above risks and problems, an EFDS was
not available for 2006, which significantly reduced the IRS’ ability to identify and stop millions
of dollars in fraudulent refunds. As of April 19, 2006, the IRS had stopped all work on the
redesigned Web EFDS, and all efforts were focused on restoring the previous EFDS for use in
January 2007. The EFDS Project Executive advised us that a decision would be made in the
future about whether to continue the Web EFDS development efforts and what contracting
approach should be used. Because the Web EFDS was not implemented as scheduled in 2005
and 2006 and there are no current plans to continue development of the Web EFDS, we estimate
the IRS inefficiently used resources totaling $20.5 million13 from May 25, 2001, to
April 24, 2006, for the contractor costs associated with development of the Web EFDS (see
Appendix IV). An undeterminable amount of internal staffing costs were also incurred in trying
to test the new System and monitor the primary contractor’s activities.
Many of the problems experienced by the Web EFDS project are similar to those we have
reported previously related to the IRS Business Systems Modernization program. Since
FY 2002, our annual assessments of the Business Systems Modernization program14 have
cited four specific challenges the IRS needs to overcome to deliver a successful
modernization effort. Three of these challenges are related to the issues presented above,
indicating a need for the IRS to address these same challenges on projects outside the
Business Systems Modernization program. These challenges include the need for the IRS to:




12
   The total number of employees (43) and the number of employees (5) who left the project were determined
through March 2006 (i.e., first quarter of 2006). The number of employees who left the project through March (5)
was multiplied by 4 to determine an annual estimate (20).
13
   This amount was based on our analysis of the total costs obtained from the EFDS Project Office and the IRS
web-based requisition tracking system.
14
   Annual Assessment of the Business Systems Modernization Program (Reference Number 2005-20-102, dated
August 2005).
                                                                                                         Page 17
                    The Electronic Fraud Detection System Redesign Failure Resulted
                         in Fraudulent Returns and Refunds Not Being Identified




       •   Implement planned improvements in key management processes and commit
           necessary resources to succeed.
       •   Manage the increasing complexity and risks of the modernization program.
       •   Maintain continuity of strategic direction with experienced leadership.

Recommendations
Recommendation 4: The CIO should ensure project risks are identified properly and plans
are prepared to reduce the risks affecting the successful development of the project.
           Management’s Response: IRS management agreed with this recommendation.
           Risks, issues, and mitigation strategies for the EFDS are identified and documented for
           the Taxpayer Relationship Management Executive Steering Committee and the Senior
           Management Dashboard Review. All items will be documented in the Item Tracking
           Reporting and Control System and discussed at the Senior Management Dashboard
           Review and Executive Steering Committee meetings.
Recommendation 5: The CIO should ensure the proper system development life cycle
methodology is implemented for the EFDS development, based on the types of changes being
made to the System.
           Management’s Response: IRS management agreed with this recommendation.
           Work on the Web portal EFDS has stopped. The old EFDS is being updated and is
           planned to be in production in January 2007. Meetings began the week of June 26, 2006,
           to discuss tailoring the ELC for the old EFDS. Once the tailoring plan has been
           completed, ELC milestone reviews will occur as scheduled. The IRS expects the
           restoration of the old EFDS will be characterized as Steady State.

Contractor 1’s Performance Was Not Effectively Monitored, and
Performance-Based Contracts Were Not Used
The Federal Acquisition Regulation (FAR)15 holds contractors responsible for timely contract
performance; however, the Federal Government is also responsible for monitoring contractor
performance, as necessary, to protect its interest. This monitoring should include comparing a
contractor’s performance plans, schedules, controls, and processes against the contractor’s actual
performance; determining the contractor’s progress; and identifying any factors that may delay
performance. Agencies are also required to develop quality assurance surveillance plans when
acquiring services. The IRS Office of Procurement Policy best practices state that a planned
surveillance effort is necessary to measure contractor performance and ensure successful

15
     48 C.F.R. ch. 1 (2005).
                                                                                             Page 18
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




completion of tasks. In addition, the FAR requires agencies to prepare evaluations of contractor
performance for contracts with a value exceeding $1 million. Interim evaluations should be
prepared for contracts with a period of performance, including options, exceeding 1 year.
Agencies are also required to describe requirements in terms of results rather than process; use
measurable performance standards; provide for reductions of fees or price (e.g., for work that
will not be or was not done); and include performance incentives, where appropriate.
Contracting Officers are responsible for ensuring performance of all necessary actions for
effective contracting, ensuring compliance with the terms of the contract, and safeguarding the
interests of the Federal Government in its contractual relationships. The FAR includes a detailed
list of contract administration functions required of Contracting Officers, many of which can be
delegated to a COTR. COTR responsibilities for managing Treasury Information Processing
Support Services-2 contracts include developing requirements; monitoring contractor
performance and schedule; developing, reviewing, inspecting, and accepting deliverables;
reviewing invoices; informing the Contracting Officer when the contractor is behind schedule
and coordinating corrective action to ensure the contract schedule is met; and reviewing monthly
status reports. Specific responsibilities in the appointment letter of the EFDS COTR include
monitoring the contractor’s performance, reviewing the vouchers, performing quarterly technical
evaluations, and coordinating with the program office actions relating to funding and changes in
scope of work.
We reviewed six work requests written against the EFDS task order and determined they
included deliverables written in general terms with no specific due dates. For example, the due
dates for the following documents were May 25, 2005, to January 13, 2006:
   •   Requirements Traceability Matrix.
   •   Quality Assurance Plan, with revisions.
   •   Software Specification Requirement version 1.2a.
   •   Test Plans for testing activities associated with 2005 and 2006.
Most of the deliverables in subsequent work requests to cover the contractor’s work from
February 5, 2006, to April 6, 2006, also did not have specific due dates, and the work requests
were not performance- or incentive-based requests. As of April 19, 2006, the contractor had not
delivered a fully functional EFDS.
Because cost-reimbursement contracts were used without performance-based requirements, the
contractor continues to be paid for system development work while a critical system used to stop
fraudulent tax returns and refunds could not be used during PY 2006. The Federal Government’s
interest has not been protected, and the contractor cannot be held accountable for not meeting
deliverable due dates.


                                                                                         Page 19
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




While the contract vehicle used to obtain contractor services is very important, the effectiveness
of the COTR in monitoring the contractor’s performance is also crucial in assuring successful
contract administration. ****3(d)****




The contractor’s inability to deliver the Web EFDS for PY 2006 is a major concern. However,
this issue is magnified by the fact that the System was originally scheduled for implementation in
January 2005. In October 2004, IRS executives became concerned about the status of the Web
EFDS development. CI Division and MITS organization executives decided that, because the
Web EFDS could not be implemented in January 2005 as planned, the old EFDS would be
implemented. Therefore, the old EFDS had to be revised by loading data, making software
updates, and testing the System so it could be implemented for PY 2005. IRS management
advised us that, during a meeting between IRS and contractor executives, a Contractor Senior
Director commented the old EFDS would be updated and implemented at no cost to the Federal
Government because the contractor did not deliver the Web EFDS as scheduled. However, the
contractor submitted charges totaling $459,718 for the additional work to get the old EFDS ready
for implementation, and these charges were paid by the IRS. The EFDS Project Manager
advised us the invoices were paid without question because all invoices for the contract type that

                                                                                           Page 20
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




was used must be paid in full. The contractor had stated only verbally it would not charge the
IRS for updating the old EFDS for use in 2005, and the matter was not raised with the contractor.
Therefore, these costs are considered questioned costs (see Appendix IV) because the contractor
did not deliver a Web EFDS that worked.
The IRS has established a Questionable Refund Program Executive Steering Committee to
review and approve changes to the Program. One of the Committee’s action items is to analyze
the pros and cons of moving all or some of the EFDS work from the CI Division to other
business units, to allow the CI Division to focus its efforts on identifying refund schemes worthy
of criminal investigation. A due date for the analysis has not been determined. If some or all of
the EFDS work will be performed by the other business units, the current Web EFDS may not
meet their needs. The change would require the EFDS Project Office to gather requirements
from all the new users.
Ensuring contractor performance and accountability is not only a concern for the Web EFDS. As
previously mentioned, our annual assessments of the Business Systems Modernization program
have cited four specific challenges the IRS needs to overcome to deliver a successful
modernization effort. The fourth challenge, which also applies to the EFDS, is to ensure
contractor performance and accountability are effectively managed. The IRS has taken actions
to address the issue of risk and cost sharing between the IRS and contractors in the Business
Systems Modernization program. For example, due to problems and delays during the Integrated
Financial System development, the IRS and the contractor established a task order cost-sharing
agreement in which both parties will pay a percentage of the development costs based on a
defined period of time. However, such actions were not taken by the EFDS Project Office.
By using cost-reimbursement contracts without performance-based requirements, ineffectively
monitoring contractor performance, and not questioning contractor invoice charges for updating
the old EFDS, the IRS did not ensure the Federal Government’s interests were protected and the
Web EFDS was implemented timely to identify and stop fraudulent tax returns and refunds.

Recommendations
Recommendation 6: The CIO should ensure contractors are accountable for performance by
developing performance-based requirements for new EFDS contracts. The CIO should also
consider employing cost-sharing arrangements for future task orders so both the IRS and
contractor share the risk of project development cost overruns.
       Management’s Response: IRS management agreed with this recommendation. The
       contract for the old EFDS restoration is under negotiation, but it is anticipated that it will
       be a cost-plus-fixed-fee contract with a percentage of the contractor’s fees dependent
       upon timely delivery of specified milestones. Any future contracts for completion of the
       Web EFDS system will be performance-based contracts.


                                                                                             Page 21
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




Recommendation 7: The CIO should ensure COTRs are trained adequately and their duties
are performed properly to monitor contractor performance effectively through planned
surveillance efforts and independent inspections of contractor work, as described by IRS Office
of Procurement Policy best practices.
       Management’s Response: IRS management agreed with this recommendation. All
       current COTRs are certified, having passed the COTR Training conducted by the Office
       of Procurement prior to being appointed. Effective in FY 2007, the appropriate project
       office management staff will have a commitment to ensure all COTRs are trained
       adequately and their duties are performed properly to monitor the contractors’
       performance effectively through the use of planned surveillance efforts and independent
       inspections of contractor work as described by the IRS Office of Procurement Policy best
       practices.
Recommendation 8: The CIO and the Director, Procurement, should initiate discussions with
the contractor to recover the funds paid to the contractor to restore the old EFDS for use in
PY 2005 and any additional costs resulting from nondelivery of a functional Web EFDS.
       Management’s Response: IRS management agreed with this recommendation. The
       Federal Government was able to define the performance specifications only in general
       terms and stated a specific level of effort per labor category in the task order. The IRS
       directed the performance of the contractor through issuance of work requests. Because
       the task order was awarded on a cost-reimbursement basis, the contractor is expected
       only to fulfill the defined contractual requirements on a best effort basis. The contractor
       fulfilled its contractual obligations of this task order and, therefore, there is no contractual
       leverage available to negotiate any funds recovery on this task order. The Federal
       Government is obligated to pay all allowable and allocable charges invoiced by the
       contractor against this task order. In May 2006, the IRS initiated discussions with the
       contractor regarding cost-sharing for the contract to restore the old EFDS for PY 2007.
Recommendation 9: The CIO should defer additional work on the Web EFDS until the IRS
decides who will perform the EFDS work. If some or all of the work will transfer to other
business units, the CIO should ensure their requirements are identified before initiating a contract
for further development of the Web EFDS. The contract should be opened to competition.
       Management’s Response: IRS management agreed with this recommendation.
       Work on the Web EFDS was stopped on April 19, 2006. An IRS-wide initiative for the
       Questionable Refund Program has started, and a high-level strategy will be completed by
       December 31, 2006. Because of this, no determination has been made concerning the
       resumption of work on the Web EFDS. Any further development of the Web EFDS will
       include requirements identified from this initiative, and any new development work will
       be opened to competition under the Treasury Information Processing Support Services-3
       contract.

                                                                                              Page 22
                   The Electronic Fraud Detection System Redesign Failure Resulted
                        in Fraudulent Returns and Refunds Not Being Identified




                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) effectively managed annual programming changes and requested modifications to the
Electronic Fraud Detection System (EFDS) prior to Processing Year1 (PY) 2006. Specifically,
we:
I.         Determined whether policies and procedures for requesting, developing, managing, and
           implementing system modifications were effective to ensure adequate testing and timely
           implementation.
           A. Reviewed the Modernization and Information Technology Services (MITS)
              organization Capital Planning and Investment Control policies, procedures, and
              documents to determine whether the EFDS was included in the MITS organization
              information technology investment portfolio. We also interviewed Business Systems
              Development (BSD) organization management and reviewed Executive Steering
              Committee briefings and meeting minutes to determine whether an Executive
              Steering Committee had oversight responsibility for the Web EFDS, problems were
              elevated timely to senior management, and measures were taken to reduce risks.
           B. Obtained and reviewed policies and procedures for monitoring contractor progress
              and performance, and obtained the Requests for Information Services and
              contract/task order information for the EFDS changes to be implemented for
              PY 2006, to determine whether the Project Office ensured the Web EFDS changes
              worked as expected and timely met the users’ needs. We also determined how
              problems were identified, elevated, and controlled and where the problems occurred.
              We determined why the Web EFDS was not delivered timely and the effect on
              PY 2006. We obtained and reviewed status reports and project schedules to
              determine when critical problems initially occurred and when they were elevated.
              We obtained and reviewed correspondence prepared by BSD organization
              management notifying the Contracting Officer’s Technical Representative (COTR)
              and users about the Web EFDS problems and the resolution status.
           C. Obtained and reviewed policies and procedures for monitoring contractor progress
              and performance. We interviewed the COTRs and identified their process for
              monitoring the contractor to ensure the work was on schedule and met the contract
              terms and user requirements; obtained and reviewed status reports and minutes of


1
    See Appendix VI for a Glossary of Terms.

                                                                                          Page 23
            The Electronic Fraud Detection System Redesign Failure Resulted
                 in Fraudulent Returns and Refunds Not Being Identified




         meetings between the COTRs and contractor(s) working on the Web EFDS project;
         identified the type of the EFDS contract/task order and determined whether payments
         were withheld for unacceptable performance; determined the amounts budgeted and
         actually spent for the Web EFDS changes to be implemented for PY 2006;
         determined whether the IRS required the contractor to perform the work again, in
         conformity with contract and specified requirements; and determined the amount of
         additional costs.
II.   Determined whether system development problems were identified timely and risk
      mitigation procedures were implemented to minimize the impact to the Questionable
      Refund Program.
      A. Obtained and reviewed system development policies and procedures for problem
         identification and resolution.
      B. Interviewed BSD organization and Criminal Investigation Division management and
         staff responsible for the Web EFDS to determine the status of the Web EFDS;
         whether the System was ever placed into production and operational during PY 2006;
         how the problems were identified, tracked, and shared with customers and
         contractor(s); when the problems occurred, the cause, and the resolution status;
         whether the problems were associated with annual programming changes and/or
         System redesign work completed prior to PY 2006; whether meetings/briefings were
         held to discuss the effect from the problems and resolution status; and what
         contingency plans were developed and whether they were implemented.
      C. Obtained and reviewed reports used by management to monitor the status of the
         problems. We obtained and analyzed a download of the Web EFDS problems
         reported in the IRS problem ticket database to determine the problem ticket category,
         date the ticket was opened, number of days open, and number of tickets opened in
         each priority code and ticket category.
      D. Obtained and reviewed the minutes from meetings/briefings held to discuss the
         problems associated with the Web EFDS and determined who the attendees were, the
         frequency of the meetings/briefings, and whether the effects from the application
         problems and associated resolution status were discussed.
      E. Obtained and reviewed correspondence and emails prepared by the BSD organization
         to elevate the problems to executive management.




                                                                                       Page 24
             The Electronic Fraud Detection System Redesign Failure Resulted
                  in Fraudulent Returns and Refunds Not Being Identified




III.   Determined whether measures were being taken to correct the Web EFDS problems
       timely.
       A. Interviewed IRS personnel, attended conference call status briefings, and received
          voice mail status briefings to determine the actions taken or recommended to
          implement as quickly as possible a Web EFDS that met the requirements.
       B. Obtained and reviewed minutes of meetings/discussions or other documentation
          between contractors and BSD organization management regarding the status of Web
          EFDS problems and required action items/resolutions to determine whether decisions
          relating to Step III.A. were documented.
IV.    Determined the validity and reliability of data from computer-based systems. We used
       computer-based data to determine the amounts spent and planned to be spent on the Web
       EFDS. We reviewed documentation supporting the project costs and the information
       technology investment portfolio and Business Case to assess the completeness and
       accuracy of the data. We determined the data were reliable as it related to our audit
       objectives.




                                                                                        Page 25
             The Electronic Fraud Detection System Redesign Failure Resulted
                  in Fraudulent Returns and Refunds Not Being Identified




                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Tina Wong, Lead Auditor
Mark Carder, Senior Auditor
Paul Mitchell, Senior Auditor
Phung-Son Nguyen, Senior Auditor
Van Warmke, Senior Auditor
Olivia DeBerry, Auditor
Charlene Elliston, Auditor
Perrin Gleaton, Auditor
Kim McManis, Auditor
Linda Screws, Auditor




                                                                                     Page 26
             The Electronic Fraud Detection System Redesign Failure Resulted
                  in Fraudulent Returns and Refunds Not Being Identified




                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief, Criminal Investigation SE:CI
Deputy Chief, Criminal Investigation SE:CI
Director, Procurement OS:A:P
Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Capital Planning and Investment Control OS:CIO:R
Director, Refund Crimes SE:CI:RC
Director, Stakeholder Management Division OS:CIO:SM
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                Page 27
                    The Electronic Fraud Detection System Redesign Failure Resulted
                         in Fraudulent Returns and Refunds Not Being Identified




                                                                                               Appendix IV

                                      Outcome Measures

 This appendix presents detailed information on the measurable impact that our recommended
 corrective actions will have on tax administration. These benefits will be incorporated into our
 Semiannual Report to Congress.

 Type and Value of Outcome Measure:
       •     Revenue Protection – Potential; $318.3 million (see page 4).

 Methodology Used to Measure the Reported Benefit:
 The Electronic Fraud Detection System (EFDS) was not operational during Processing
 Year1 (PY) 2006. Therefore, Internal Revenue Service (IRS) management does not know how
 many fraudulent tax returns and refunds have not been and will not be stopped during PY 2006.
 Figure 1 shows the amount of fraudulent refunds stopped has generally increased over the last
 4 years.
         Figure 1: Fraudulent Refund Returns and Refunds Identified and Stopped
 Processing        Total         Refund         Returns       False       False    False Refunds    False Refunds
   Year           Returns        Returns        Screened     Refund      Refund      Identified       Stopped2
                   Filed          Filed         by Fraud     Returns     Returns
                                                Detection   Identified   Stopped
                                                 Centers
      2002       130,341,159   104,367,859      1,942,089    81,486      41,358     $450,023,509     $333,541,138
      2003       130,134,276   104,904,543      740,216      96,953      73,400     $349,515,144     $266,423,786
      2004       130,459,600   106,420,200      463,222      118,075     82,099    $2,241,612,551   $2,110,454,658
      2005       133,933,000   100,276,000      511,805      132,945     103,537    $515,548,186     $412,184,202
Source: The Criminal Investigation Division.




 1
     See Appendix VI for a Glossary of Terms.
 2
     ****1****
                                                                                                         Page 28
                 The Electronic Fraud Detection System Redesign Failure Resulted
                      in Fraudulent Returns and Refunds Not Being Identified




During PY 2005, $412.2 million in fraudulent refunds were stopped. The IRS reported that, due
to other leads,3 $93.9 million4 in fraudulent refunds had been stopped as of May 19, 2006,
without the EFDS being operational. Therefore, based on the value of fraudulent refunds
stopped by the EFDS in PYs 2005 and 2006 (through May 19), we estimate approximately
$318.3 million in fraudulent refunds may have been issued in 2006, resulting in lost revenue to
the Federal Government.

Type and Value of Outcome Measure:
    •    Inefficient Use of Resources – Potential; $20.5 million (see page 9).

Methodology Used to Measure the Reported Benefit:
Because the Web EFDS was not implemented as scheduled in 2005 and 2006, and there are no
current plans to continue development of the Web EFDS, we estimate the IRS inefficiently used
resources totaling $20.5 million from May 25, 2001, to April 24, 2006, for the contractor costs
associated with the development of the Web EFDS. The EFDS Project Executive provided a
spreadsheet with the payments made to Contractor 1 for system maintenance and Web EFDS
development. We determined $18.5 million should be considered the development costs charged
by Contractor 1.5 Contractors 2 and 3 were paid approximately $2 million between
February 6, 2004, and April 24, 2006, for Web EFDS development costs. Thus, the costs for
Web EFDS development totaled $20.5 million.

Type and Value of Outcome Measure:
    •    Questioned Costs – Actual; $459,718 (see page 18).

Methodology Used to Measure the Reported Benefit:
In October 2004, IRS executives became concerned about the status of the Web EFDS
development. They determined the Web EFDS could not be implemented in January 2005 as
planned and decided the old EFDS would be implemented. Therefore, the old EFDS needed to
receive software updates, complete testing, etc. to be implemented for PY 2005. IRS
management advised us that, during a meeting between IRS and contractor executives, a
Contractor Senior Director commented the old EFDS would be updated and implemented at no
cost to the Federal Government because the contractor did not deliver the Web EFDS as


3
  The EFDS is the primary source for the identification of leads on fraudulently filed tax returns; however, leads are
also received from sources internal to and external from the IRS.
4
  This amount was derived from a manual process provided by the Fraud Detection Centers on a weekly report; it
has not been verified and could contain inconsistencies/inaccuracies due to the manual process.
5
  The $18.5 million and $20.5 million are based on our analysis of the total costs obtained from the EFDS Project
Office and the IRS web-based requisition tracking system.
                                                                                                             Page 29
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




scheduled. However, the contractor submitted invoice charges totaling $459,718 for the
additional work to get the old EFDS ready for implementation and these charges were paid by
the IRS. The EFDS Project Manager advised us the invoices were paid without question because
all invoices for the contract type that was used must be paid in full. The contractor had stated
only verbally it would not charge the IRS for updating the old EFDS for use in 2005, and the
matter was not raised with the contractor.




                                                                                        Page 30
                   The Electronic Fraud Detection System Redesign Failure Resulted
                        in Fraudulent Returns and Refunds Not Being Identified




                                                                                                  Appendix V

Chronology of the Electronic Fraud Detection System
               Development Events -
      January 1, 1995, Through April 19, 2006

            1995
           1995            The Electronic Fraud Detection System (EFDS) was prototyped at the Cincinnati Service
                           Center1 in 1994 and implemented in the five electronic filing service centers in 1995. Prior to
                           implementation of the EFDS, the Questionable Refund Program Computer Identification
                           Program began analyzing paper tax returns in 1977 and electronically filed tax returns in 1990.
           1996
           1996            Contractor 1 began work on the EFDS under the Treasury Information Processing Support
                           Services contract. The EFDS was implemented at all 10 Fraud Detection Centers.
           2001
       June 20, 2001       The Internal Revenue Service (IRS) approved a task order for Contractor 1 for the period
                           June 2000 through May 2006 authorizing approximately $39.5 million for software
                           maintenance and development. As of April 2006, the IRS had spent over $37 million.
           2002
      January 31, 2002     A new Director, Business Systems Development (BSD), was appointed.

       June 12, 2002       The Contractor 1 reengineering study, which dealt mostly with redesign of the database, stated
                           the EFDS database required a major reengineering effort to meet the needs of the Criminal
                           Investigation (CI) Division to identify quickly and stop tax refund fraud.
       June 14, 2002       The EFDS Executive Steering Committee (ESC) was established in the Modernization and
                           Information Technology Services (MITS) organization.
           2003
     February 14, 2003     The Reengineering 2003 Technical Approach and Plan showed Web EFDS applications were
                           to be implemented in January 2005.
       July 14, 2003       Last known meeting of the EFDS ESC. This meeting included the first ESC discussion of the
                           Web portal and database redesign projects. Project monitoring responsibility was transferred
                           to the EFDS Project Office in the BSD organization because the planning and scheduling
                           phase was completed (it lasted 13 months) and the performance problems were resolved.




1
    See Appendix VI for a Glossary of Terms.
                                                                                                            Page 31
                The Electronic Fraud Detection System Redesign Failure Resulted
                     in Fraudulent Returns and Refunds Not Being Identified



      2004

    June 2004        The MITS organization appointed a new BSD Director, Filing Systems Division, who is
                     responsible for the EFDS.
  June 18, 2004      The EFDS Contracting Officer’s Technical Representative (COTR) expressed concerns to the
                     contractor’s development team that they had not completed a walk-through of the application
                     with the users. Therefore, the contractor was not sufficiently familiar with the functionality of
                     the current EFDS, screen changes were made without considering user needs, and the
                     requirements document was not followed.
July – August 2004   The EFDS software was delivered to the Product Assurance organization for System
                     Acceptability Testing. Problems were identified, and the System was deemed unusable.
September 9, 2004    The IRS EFDS Project Manager sent an email to the CI Division advising there is no
                     contingency plan to keep the old programs functional or to use them for Processing
                     Year (PY) 2005 production.
  October 2004       The IRS EFDS Project Manager left the EFDS project sometime between August 2004 and
                     October 2004. IRS executives and Contractor 1 agreed the System modifications would not be
                     ready by January 2005. A decision was made to use the old EFDS for PY 2005 while work
                     continued on the new System.
October 18, 2004     The Product Assurance organization advised the CI Division the EFDS Web portal
                     applications were not delivered for System Acceptability Testing on October 9, 2004, as
                     planned.
October 31, 2004     A new Project Manager was appointed for the EFDS.

November 2, 2004     The CI Director, Refund Crimes, advised the Chief, CI, that, per a meeting between the BSD
                     Director, Filing Systems Division, and the Associate Chief Information Officer (CIO),
                     Information Technology Services, on November 01, 2004, the IRS would be going back to the
                     2004 EFDS for PY 2005.
  ****3(d)****       ****3(d)****

      2005
February 17, 2005    The CI Director, Refund Crimes, signed the Web Portal Requirements Package.

 March 11, 2005      The Web Portal Work Breakdown Structure was signed. This provided for a commitment
                     from Contractor 1 senior management to the dates noted in the work breakdown structure.
  April 20, 2005     An EFDS Project Office email cited data loads and other problems (first indication of Web
                     EFDS problems in 2005).
    July 2005        The Product Assurance organization began System Acceptability Tests and identified System
                     problems.




                                                                                                        Page 32
             The Electronic Fraud Detection System Redesign Failure Resulted
                  in Fraudulent Returns and Refunds Not Being Identified



   August 2005       The training database was delivered to the CI Division, which began developing training
                     materials and surfacing problems. Biweekly meetings among the CI Division, the BSD
                     organization, and contractor executives began.
September 28, 2005   CI Division executives and staff expressed to BSD organization management (BSD Filing
                     Systems Division Director, BSD Document Input Branch Chief, EFDS Project Office) their
                     doubts that the Web EFDS would be implemented in January 2006.
 October 18, 2005    The CI Director, Refund Crimes, submitted a briefing paper to the Chief, CI, advising there is
                     no contingency plan for the EFDS.
 October 21, 2005    In an email, Contractor 1 assured the IRS it was confident that the Web EFDS would be
                     delivered on January 13, 2006.
 October 28, 2005    The Chief, CI, emailed the Deputy CIO advising that their staffs had come to a collective
                     understanding of the Web EFDS risks and planned to discuss any unresolved issues or pending
                     risks the following week.
 October 31, 2005    The BSD Director, Filing Systems Division, emailed an update on the Web EFDS performance
                     and data conversion problems to the CIO, other MITS organization executives, CI Division
                     executives, and BSD organization management and staff. (This is the first time we can
                     substantiate the CIO was notified of problems.) Contractor 1 maintained the System would be
                     ready on January 13, 2006, as scheduled. The first EFDS Readiness Executive Briefing was
                     held.
 Late October or     The Deputy Commissioner for Operations Support and the Deputy Commissioner for Services
 November 2005       and Enforcement advised us they became aware of the Web EFDS issues in late October or
                     November 2005.
November 2, 2005     The BSD Director, Filing Systems Division, visited the CI Division’s training location to
                     observe the problems with the training database.
November 4, 2005     The CIO advised us the first indication of potential Web EFDS issues was raised during the CI
                     Division’s Business Performance Review meeting for the fourth quarter of Fiscal Year 2005.
November 7, 2005     The CIO advised us the MITS organization Business Performance Review meeting for the
                     fourth quarter of Fiscal Year 2005 included a presentation on Web EFDS that indicated there
                     were issues with the System, but it would be delivered on schedule.
 November 2005       The Associate CIO, BSD, and others decided they could not go back to the old EFDS. They
                     thought they could run the new System, even though it had known flaws.
November 29, 2005    A meeting was held with the following IRS executives to discuss progress made to prepare the
                     CI Division for PY 2006 as it related to the Web EFDS: Deputy CIO; Associate CIO, BSD;
                     Deputy Associate CIO, BSD; Deputy Director, Submission Processing; Director, Filing
                     Systems Division; CI Director, Refund Crimes; and CI Deputy Director, Technology
                     Operations and Investigative Services.




                                                                                                      Page 33
             The Electronic Fraud Detection System Redesign Failure Resulted
                  in Fraudulent Returns and Refunds Not Being Identified



Late November or    Senior executive briefings began daily on the status of the Web EFDS. Participants in these
 December 2005      briefings were generally the Associate CIO, BSD; Deputy Associate CIO, BSD; Director and
                    Assistant Director, Filing Systems Division; and representatives from the contractor, Project
                    Office, and Enterprise Operations organization.
                    The Commissioner advised us he became aware of the Web EFDS problems in late November
                    or December 2005.
 December 2005      An acting EFDS Project Manager was appointed.

December 2, 2005    The old EFDS was shut down.

December 22, 2005   The EFDS Project Office determined data loads had not started although the
                    December 20, 2005, work breakdown structure prepared by Contractor 1 indicated the work
                    was 50 percent complete.
December 31, 2005   The CI Division Business Performance Review for the first quarter of Fiscal Year 2006 stated
                    the Web EFDS was currently delayed and remained in testing, meetings between the MITS
                    organization and CI Division had occurred to discuss progress and potential risk to the
                    Program, and training for Fraud Detection Center personnel had been stopped.
      2006

  January 2006      IRS executives realized the project would not be delivered on time.

 January 4, 2006    The Web EFDS project schedule slipped 2 weeks since prior day’s work breakdown structure.
                    The problems at this time were related to data volume/data conversion/daily loads; they were
                    not application-related problems.
 January 13, 2006   Planned delivery date for the Web EFDS.

 January 25, 2006   After missing the January 13, 2006, implementation date, Contractor 1 management stated a
                    fully functioning System would be delivered by February 1, 2006.
 January 30, 2006   The BSD organization informed the CIO that a System would not be delivered by
                    February 1, 2006.
February 13, 2006   The IRS initiated a ‘War Room’ to coordinate communications among the Enterprise
                    Operations and BSD organizations and the CI Division.
February 15, 2006   The Compliance Domain Director, Applications Development, took over the Web EFDS
                    project.
February 16, 2006   The MITS organization Business Performance Review for the first quarter of Fiscal
                    Year 2006 stated it failed to timely implement the Web EFDS for production startup on
                    January 13, 2006.




                                                                                                     Page 34
                The Electronic Fraud Detection System Redesign Failure Resulted
                     in Fraudulent Returns and Refunds Not Being Identified



  February 21, 2006     The IRS Deputy Commissioner for Services and Enforcement advised the Treasury Inspector
                        General for Tax Administration that the EFDS would not be available during PY 2006. The
                        IRS does not plan to conduct a recovery program to identify potentially fraudulent refunds
                        already issued.
     March 2006         The old EFDS became available for nationwide research purposes only.

    April 10, 2006      War Room and testing efforts for the new System were stopped.

    April 17, 2006      A new acting EFDS Project Manager was appointed. Due to the risks, MITS organization
                        executives (e.g., the EFDS Project Executive), with IRS Commissioner concurrence, decided
                        to work only on restoring the old EFDS for use in PY 2007.
    April 19, 2006      All system development activities for the new EFDS (i.e., Web portal application and database
                        redesign efforts) were stopped; the contractor began finalizing a plan for revising the old EFDS
                        for use in PYs 2006 and 2007.
Source: Our interviews and documents acquired during fieldwork.




                                                                                                         Page 35
                The Electronic Fraud Detection System Redesign Failure Resulted
                     in Fraudulent Returns and Refunds Not Being Identified




                                                                              Appendix VI

                                  Glossary of Terms

As-built Architecture                         Documents Internal Revenue Service (IRS)
                                              current production information technology
                                              systems.
Business Case                                 Required by Office of Management and Budget
                                              Circular A-11 (Preparation, Execution, and
                                              Submission of the Budget; dated June 2005) and
                                              commonly called Exhibit 300, Capital Asset
                                              Plan and Business Case. Each agency must
                                              submit a Business Case twice a year for each
                                              major information technology investment.
Cincinnati Service Center (currently known as Data processing arm of the IRS. The campuses
the Cincinnati Campus), located in            process paper and electronic submissions,
Covington, Kentucky                           correct errors, and forward data to the
                                              Computing Centers for analysis and posting to
                                              taxpayer accounts.
Client Server                                 A network architecture in which clients are
                                              personal computers or workstations on which
                                              users run applications. Clients rely on servers
                                              for resources such as files, devices, and even
                                              processing power.
Computing Centers                             Support tax processing and information
                                              management through a data processing and
                                              telecommunications infrastructure.
Contracting Officer’s Technical               Furnishes technical direction, monitors contract
Representative                                performance, and maintains an arm’s-length
                                              relationship with the contractor.




                                                                                       Page 36
              The Electronic Fraud Detection System Redesign Failure Resulted
                   in Fraudulent Returns and Refunds Not Being Identified




Cost-Plus-Fixed-Fee Contract              A cost-reimbursement contract that provides for
                                          payment to the contractor of a negotiated fee
                                          that is fixed at the inception of the contract.
                                          This contract type permits contracting for
                                          efforts that might otherwise present too great a
                                          risk to contractors, but it provides the contractor
                                          only a minimum incentive to control costs.
Cost-Reimbursement Contract               Provides for payment of allowable incurred
                                          costs, to the extent prescribed in the contract.
Data Loads                                Process of placing data into a system or
                                          database.
Data-Mining Technique                     Process of automatically searching large
                                          volumes of data for patterns.
Development/Modernization/Enhancement     Any new information technology investment
                                          being proposed, developed, or acquired.
Enterprise Life Cycle-Lite (ELC-Lite)     Required system development methodology for
                                          all nonmodernization projects.
ELC-Lite – Architecture Phase             Establishes the concept/vision, requirements,
                                          high-level design, project management
                                          processes, and plans for a particular business
                                          area or target system. It also defines the
                                          releases for the business area or system.
ELC-Lite – Integration Phase              Includes the integration, testing, piloting, and
                                          acceptance of a system release.
ELC-Lite – Operations and Support Phase   Addresses the ongoing support of the system
                                          and maintenance of the applications. It begins
                                          after the business process and system(s) have
                                          been installed and have begun performing
                                          business functions. It encompasses all of the
                                          operations and support processes necessary to
                                          deliver the services associated with managing
                                          all or part of a computing environment.




                                                                                     Page 37
             The Electronic Fraud Detection System Redesign Failure Resulted
                  in Fraudulent Returns and Refunds Not Being Identified




Executive Steering Committee                  Oversees investments, including validating
                                              major investment business requirements and
                                              ensuring that enabling technologies are defined,
                                              developed, and implemented.
Fraud Detection Centers                       Ten Criminal Investigation Division Centers
                                              whose mission is to identify and detect refund
                                              fraud, prevent the issuance of false refunds, and
                                              provide support for the Criminal Investigation
                                              Division field offices.
Information Technology Investment Portfolio   Required by Office of Management and Budget
                                              Circular A-11 and commonly referred to as an
                                              Exhibit 53. This portfolio must be submitted
                                              with each agency’s annual budget submission
                                              and contain the information technology
                                              investment title, description, amount, and
                                              funding source.
Integrated Financial System                   An administrative accounting system used by
                                              the IRS.
Item Tracking Reporting and Control           An information system used by the Business
                                              Systems Modernization Office to track and
                                              report on issues, risks, and action items in the
                                              modernization effort.
Milestone Review                              A formal review process conducted to
                                              determine whether key activities within a
                                              project’s life cycle have been completed prior to
                                              proceeding from milestone to milestone.
Modernization and Information Technology      Highest level recommending and
Services (MITS) Enterprise Governance         decision-making body to oversee and enhance
Committee                                     enterprise management of information systems
                                              and technology. It ensures strategic
                                              modernization and information technology
                                              program investments, goals, and activities are
                                              aligned with and support 1) the business needs
                                              across the enterprise and 2) the modernized
                                              vision of the IRS.




                                                                                        Page 38
             The Electronic Fraud Detection System Redesign Failure Resulted
                  in Fraudulent Returns and Refunds Not Being Identified




MITS Enterprise Governance Committee   Supports the MITS Enterprise Governance
Investment Management Subcommittee     Committee in the realization of the IRS Capital
                                       Planning and Investment Control process and
                                       with the management of the IRS information
                                       technology investment portfolio. This
                                       Subcommittee provides general information
                                       technology investment portfolio oversight,
                                       including operational analysis reviews and
                                       reports, investment prioritization
                                       recommendations, and recommendations for
                                       adjustments to the IRS portfolio.
Performance-Based Contract             Provides for acquiring services on the basis of
                                       required results rather than the methods of
                                       performing the work and uses measurable
                                       performance standards (e.g., in terms of quality,
                                       timeliness, quantity).
Processing Year                        The year in which tax returns and other tax data
                                       are processed.
Product Assurance                      A MITS organization function that
                                       independently assesses the quality of the
                                       applications software by conducting System
                                       Acceptability Testing with controlled data to aid
                                       the customer in determining the system’s
                                       production readiness.
Quality Assurance Surveillance Plan    Ensures services provided by the contractor
                                       meet contract requirements. It should specify
                                       the work requiring surveillance and the method
                                       of surveillance.
Questionable Refund Program Computer   An application running on the mainframe
Identification Program                 computer. The Program was originally
                                       developed by the IRS Inspection Service and
                                       run by the Internal Audit function (now the
                                       Treasury Inspector General for Tax
                                       Administration Office of Audit).




                                                                                Page 39
               The Electronic Fraud Detection System Redesign Failure Resulted
                    in Fraudulent Returns and Refunds Not Being Identified




Questioned Cost                             A cost that (1) violated a provision of a law,
                                            regulation, contract, or other requirement
                                            governing the expenditure of funds; (2) was not
                                            supported by adequate documentation; or
                                            (3) was unnecessary or unreasonable.
Request for Information Services            A formal memorandum requesting MITS
                                            organization support for changes to current or
                                            planned programming, hardware, system
                                            testing, etc.
Security Certification and Accreditation    A security certification is an independent
                                            technical evaluation, for the purpose of
                                            accreditation, that uses security requirements as
                                            the criteria for the evaluation. An accreditation
                                            is an authorization granted by a management
                                            official to operate the system based on the
                                            evaluation of the security controls.
Senior Management Dashboard Review          A review attended by senior executives,
                                            contractors, program directors, and project
                                            managers to ensure program directors and
                                            project managers are held accountable for the
                                            project status (e.g., risk, cost, schedule).
                                            Emphasis is placed on only problem areas or
                                            notable status changes.
Steady State                                Any information technology investment that is
                                            fully operational.
System Acceptability Testing                Process of testing a system or program to ensure
                                            it meets the original objectives outlined by the
                                            user in the requirement analysis document.
Task Order                                  An order for services placed against an
                                            established contract or with Federal
                                            Government sources.
Tier A - Technical Modernization Projects   Resources devoted to projects managed by the
                                            IRS Business Systems Modernization Office.
                                            Project scale is large, with a 2-year to 3-year
                                            time period.



                                                                                      Page 40
             The Electronic Fraud Detection System Redesign Failure Resulted
                  in Fraudulent Returns and Refunds Not Being Identified




Tier B - Improvement Projects             Resources devoted to new improvements of
                                          medium size (1-year to 2-year time period) and
                                          funded from the improvement programs budget.
Tier C - Enhancements/Stay-In-Business    Resources devoted to all other types of projects
Projects                                  (e.g., sustaining operations, legislative changes,
                                          and small enhancements to sustaining
                                          operations) funded from the regular sustaining
                                          operations budget.
Time-and-Materials Contract               Provides for acquiring supplies or services on
                                          the basis of direct labor hours at specified fixed
                                          hourly rates that include wages, overhead,
                                          general and administrative expenses, profit, and
                                          materials at cost.
Treasury Information Processing Support   Contracts, awarded in 2000, that provide a
Services-2                                broad range of information technology-related
                                          services.
War Room                                  Set up at the Enterprise Computing Center in
                                          Memphis, Tennessee, to serve as a centralized
                                          repository for all incoming and outgoing
                                          information regarding the Web Electronic Fraud
                                          Detection System (Web EFDS). The War
                                          Room was staffed primarily by technical staff
                                          so information could be disseminated as it
                                          became available, questions could be answered
                                          immediately, and necessary assistance could be
                                          provided. The War Room sent daily voice mail
                                          messages two to three times per day regarding
                                          the Web EFDS status.
Web EFDS                                  EFDS development effort allowing users to
                                          access the system via the IRS Intranet.
Web Portal                                An Internet site or service that functions as a
                                          major starting site for users to connect to a
                                          broad array of resources and services, such as
                                          email, forums, research tools, online shopping
                                          malls, etc.




                                                                                    Page 41
               The Electronic Fraud Detection System Redesign Failure Resulted
                    in Fraudulent Returns and Refunds Not Being Identified




Work Breakdown Structure                 Project schedule used to manage the tasks, task
                                         relationships, and resources needed to meet
                                         project goals.
Work Request                             Contains the specific details of the work to be
                                         performed in a task order including the skill
                                         categories, estimated number of hours, required
                                         work products, and acceptance criteria.




                                                                                 Page 42
                 The Electronic Fraud Detection System Redesign Failure Resulted
                      in Fraudulent Returns and Refunds Not Being Identified




                                                                                                Appendix VII

                    Electronic Fraud Detection System
                          Management Turnover

        Table 1: Management Responsible for the Electronic Fraud Detection
           System (EFDS) Prior to the August 8, 2005, Modernization and
               Information Technology Services (MITS) Reorganization
                     Title                    Employee’s Name                           Date

                                           ****3(a), 3(d)****           ****3(a), 3(d)****

       Chief Information Officer           ****3(a), 3(d)****           ****3(a), 3(d)****
       (CIO)1                              ****3(a), 3(d)****           ****3(a), 3(d)****
                                           ****3(a), 3(d)****           ****3(a), 3(d)****

       Associate CIO, Information          ****3(a), 3(d)****           ****3(a), 3(d)****
       Technology Services2                ****3(a), 3(d)****           ****3(a), 3(d)****
       Director, Business Systems
                                           ****3(a), 3(d)****           ****3(a), 3(d)****
       Development (BSD)3
                                           ****3(a), 3(d)****           ****3(a), 3(d)****
       Deputy Director, BSD4
                                           ****3(a), 3(d)****           ****3(a), 3(d)****

       Director, Submission
                                           ****3(a), 3(d)****           ****3(a), 3(d)****
       Processing Division5

       Director, Filing Systems            ****3(a), 3(d)****           ****3(a), 3(d)****
       Division                            ****3(a), 3(d)****           ****3(a), 3(d)****




1
  Names of the Acting CIOs during the gaps in the time period are not listed.
2
  This position was abolished ****3(d)****.
3
  Position title changed to Associate CIO, BSD, as a result of the MITS organization’s reorganization, effective
August 8, 2005 (see Table 2).
4
  Position title changed from Deputy Director, BSD, to Deputy Associate CIO, Applications Development, as a
result of the MITS organization’s reorganization (see Table 2).
5
  The Division responsible for EFDS development prior to the creation of the BSD organization.
                                                                                                            Page 43
          The Electronic Fraud Detection System Redesign Failure Resulted
               in Fraudulent Returns and Refunds Not Being Identified




              Title                   Employee’s Name                      Date

 Acting Director, Filing Systems
                                   ****3(a), 3(d)****        ****3(a), 3(d)****
 Division

 Document Perfection Branch
                                   ****3(a), 3(d)****        ****3(a), 3(d)****
 Chief, Filing Systems Division

                                   ****3(a), 3(d)****        ****3(a), 3(d)****

 EFDS Project Managers/Acting      Acting Project Managers   2000 – October 2000
 Project Managers                  ****3(a), 3(d)****        ****3(a), 3(d)****
                                   ****3(a), 3(d)****        ****3(a), 3(d)****
Source: Our analysis of MITS organization documents.

          Table 2: Management Responsible for the EFDS After the
                    August 8, 2005 MITS Reorganization
              Title                   Employee's Name                      Date

 CIO                               ****3(a), 3(d)****        ****3(a), 3(d)****
 Deputy CIO                        ****3(a), 3(d)****        ****3(a), 3(d)****

 Associate CIO, BSD                ****3(a), 3(d)****        ****3(a), 3(d)****

 Associate CIO, Applications
                                   ****3(a), 3(d)****        ****3(a), 3(d)****
 Development
 Deputy Associate CIO,
                                   ****3(a), 3(d)****        ****3(a), 3(d)****
 Applications Development
 Director, Filing Systems
                                   ****3(a), 3(d)****        ****3(a), 3(d)****
 Division

 Document Perfection Branch
                                   ****3(a), 3(d)****        ****3(a), 3(d)****
 Chief, Filing Systems Division

                                   ****3(a), 3(d)****        ****3(a), 3(d)****
 EFDS Project Managers/Acting
                                   ****3(a), 3(d)****        ****3(a), 3(d)****
 Project Managers
                                   ****3(a), 3(d)****        ****3(a), 3(d)****
Source: Our analysis of MITS organization documents.




                                                                                   Page 44
   The Electronic Fraud Detection System Redesign Failure Resulted
        in Fraudulent Returns and Refunds Not Being Identified




                                                    Appendix VIII

Management’s Response to the Draft Report




                                                            Page 45
The Electronic Fraud Detection System Redesign Failure Resulted
     in Fraudulent Returns and Refunds Not Being Identified




                                                         Page 46
The Electronic Fraud Detection System Redesign Failure Resulted
     in Fraudulent Returns and Refunds Not Being Identified




                                                         Page 47
The Electronic Fraud Detection System Redesign Failure Resulted
     in Fraudulent Returns and Refunds Not Being Identified




                                                         Page 48
The Electronic Fraud Detection System Redesign Failure Resulted
     in Fraudulent Returns and Refunds Not Being Identified




                                                         Page 49
The Electronic Fraud Detection System Redesign Failure Resulted
     in Fraudulent Returns and Refunds Not Being Identified




                                                         Page 50
